U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 31, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.0 20543
Re:

Veterans Contracting Group, Inc. v. United States of America,
S.CtNo. 19-464

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 7,
2019, and placed on the docket on October 8, 2019. The government's response is due on
November 7, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 9, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0464
VETERANS CONTRACTING GROUP, INC.
USA

THOMAS G. SAUNDERS
WILMER CUTLER PICKERING HALE & DORR
LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6536
THOMAS. SAUNDERS@WILMERHALE.COM
JOSEPH A. WHITCOMB
WHITCOMB, SELINSKY, MCAULIFFE, P.C.
2000 S. COLORADO BLVD.
TOWER 1, SUITE 9500
DENVER, CO 80222
303-534-1958

